Supreme Court, U.S.
FILED

SEP 2 u 202!
IN THE
SUPREME COURT OF THE UNITED SATES

In re Hernandez Cuellar Jose Victor - PETITIONER
Vs.
United States of America - RESPONDENT

ON PETITION FOR WRIT OF HABEAS CORPUS TO
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF HABEAS CORPUS

Hernandez Cuellar Jose Victor
Reg. No.: 26608-078
Federal Correctional Institution Texarkana
P.O. BOX 7000
Texarkana, Texas 75505-7000

OFFICE OF THE CLERK

QUESTIONS

PRESENTED

1. Does a immigrant in the United States of America, whether here legally with
visa or illegally, receive Constitutionally guaranteed Rights ?

2. How can an accused get a fundamentally fair trial, if his own Assistance of
Counsel demonstrates prejudices through his actions toward defendant's wife
and lack of action for the accused ?

3- When the government and the lower Court violates a legal immigrant's Fourth
Amendment Rights and induces actions, whether directly or indirectly, of
assistance of Counsel to fail on his Constitutional duty under the 6th
Amendment.

Should the Supreme Court correct this injustice to eliminate

future Constitutional violations
union ?

to the millions of immigrants in this

LIST

OF

PARTIES

[x] All parties appear in the caption of the case on the cover page.

RELATED

CASES

-hone-

TABLE

OF

CONTENTS

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2,3

STATEMENT OF THE CASE

4-6

REASONS FOR GRANTING THE WRIT
CONCLUSION

6-20
20

TABLE

OF

AUTHORITIES

CITED

CASES

PAGE NUMBER

United States Vs. Davis,
139 S.Ct. 2319, 204, C. Ed 2d 757 (2019).

5

Jackson Vs. Virginia,

5

(1979).
Sutton Vs. United States,
157, F 2d 666 (CA5, 1946).
Dalia Vs. United States,
441 U.S. 238, 255 (1979).
Screws Vs. United States,
325 U.S. 91, 129-130 (1944).

6

6 & 9

'v

Satton Vs. United States,
157 F 2d 661 (CA5 1946).
United States Vs. Grubbs,
547 U.S. 90, 97 (2006).
Marron Vs. United States,
275 U.S. 192, 196, (1927).
United States Vs. Villarreal,
963, F 2d 770, 773 (5th Cir. 1992).
Silverthorne Lumber Co. Vs. United States,
251 U.S. 385, 64, L. Ed 319, 40, S.Ct. 182 (1920).
Wong Sun Vs. United States,
371 U.S. 471, 488, 9L. Ed 2d 441, 83 S.Ct. 407 (1963).
United States Vs. Robert Beam Ruayan,
275, F. 3d 449 (5th Cir. 2001).
Maryland Vs. Garrison,

7
8

11
12
13
13
13
13

480 U.S. 79, 84, (1987).

13

Riley Vs. California,
573 U.S. 373, 382, 134 S.Ct. 2473, 189, L. Ed 2d 430 (2014).

14

United States Vs. Morton,
984 F. 3d 421 (5th Cir. 2021).

14

Cohens Vs. Virginia,
6Wheat (19US) 264, 404 (1812).

14

Groh Vs. Ramirez,

540, U.S. 551, 564 (2004).
Illinois Vs. Krull,

14

480 U.S. 340, 348 (1987).

15

United States Vs. Woerner,
709 F 3d 527, 534 (5th Cir. 2013).

15

CASES

PAGE NUMBER

United States Vs. Davis,
564 U.S. 229, 236 - 37 (2011).

15

United States Vs. Pope,
467 F. 3d 912, 916 (5th Cir. 2006).

15

United States Vs. Gonzalez-Lopez,
548 U.S. 140, 126 (2006).

17

Summer Vs. United States,
538, F. 2d 1208 (5th Cir. 1976).

17

Glover Vs. United States,
531 U.S. 198, 203, 148 L. Ed 2d 604 (2001).

18

Padilla Vs. Kentucky,
559, U.S.__, 176, L. Ed 2d 284 (2010).

18

Lombard Vs. Lynaugh,
868, F. 2d 1475 (5th Cir. 1989).

19

Gaines Vs Hopper,
575, F. 2d 1147 (5th Cir. 1978).

19

Evitts Vs. Lucey,
469, U.S. 387, 83, L. Ed 2d 821 (1985).

20

STATUTES AND RULES
18 U.S.C. 52251(a)(e)
18 U.S.C. §2705 -Delayed notice—
Fed. R. Crim. P.

41 (h)(1)

2,5,6,17
3,10
6

OTHERS
American Government Third Edition; Copyright 1990

4

Child Pornography Prevention Act of 1996 (CPPA)

5

Webster's 9th College Dictionary 1985

7,11,12

INDEX

Appendix A:

TO

APPENDICES

Court transcript, Doc 111 PagelD# 1372, describing books
drafts and material.

Appendix B:

Ba-Bd Awards for writing contest.

Appendix C:

Transcript where Agent Christopher Thompson stated that the
evidence technically was not child pornography.

Appendix D:

Search warrant issued out of United States District Court for
the Eastern District of Virginia.

Appendix E:

Search Warrant issued out of United States District Court of
Eastern District of Texas.

Appendix F

List of seized items (not listed on Search Warrant).

Appendix G

FBI’s photo of containers with content after they opened them.

Appendix H

FBI's photo of opaque container closed with lids.

Appendix I

(1-4) Fifth Circuit appeals Court's opinion in error, by being
in contradiction with Court Transcripts (1-5).

Appendix J

Court Ruling that the Counsel can show discovery to defendant.

Appendix K

Motion to Dismiss Counsel.

Appendix L

Court Ruling DENIAL on Motion To Dismiss Counsel after
government's objection.

Appendix M:

Affidavit from Defendant's wife about conduct of Counsel •

Appendix N:

Trial transcript showing Counsel did not place favorable
witness on list for defendant defense that the defendant
provided.

Appendix 0:

Court order DISMISSING on time bar of the §2255. Court also
instructs

that

any

presents be DENIED.

future

Constitutional

issues

defendant

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF HABEAS CORPUS
Pursuant 28 U.S.C. §2242 Required Statement:
Petitioner respectfully prays that the writ of Habeas Corpus presented with
it's Constitutional issues be reviewed and ruled on due to lower Courts use
of Rules and procedures to avoid Constitutional issues presented before them.
[See Appendix

OPINIONS

0

]

BELOW

[x] For cases from Federal Courts:

-NO OPINION ISSUED -

JURISDICTION

[x] For Case from Federal Courts:

The jurisdiction of this Supreme Court of the United States is involved under
Article III, Section 2

"...The Judicial power shall extend to all cases, in

Law and Equity, arising under the Constitution... to controversies to which
the United States shall be party;..."

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Constitution for the United States of America
Article III, Section 2
"The judicial power shall extend to all cases, in Law and Equity, arising
under this constitution... to Controversies to which the United States shall
be party... the Supreme Court shall have appellate Jurisdiction, both as Law
and Fact."

Constitution for the United States of America
AMENDMENT

IV

The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be violated,,
and no Warrants shall issue, but upon probable cause, supported by oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.

Constitution for the United States of America
AMENDMENT

VI

In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the
crime shall have been committed, which district shall have been previously
ascertained

by

law,

accusation;

to

be

and

to

be

confronted

informed of the nature and cause of the
with

the

witnesses

compulsory process for obtaining witnesses

against

in his favor,

him;

to

have

and to have the

assistance of Counsel for his defence.

Statutory

Provisions

18 U.S.C. §2251(a)(e)

(a)

Any person who employs, uses, persuades, induces, entices, or coerces

any minor to engage in, or who has a minor assist any other person to engage
in,

or who

transports

any minor

in or

affecting

interstate

or

foreign

commerce, or in any territory or possession of the United States, with the
2

intent that such minor engage in any sexually explicit conduct for purpose
of producing any visual depiction of such conduct or for the purpose of
transmitting a live visual depiction of such conduct, shall be punished as
provide under subsection (e), If such person knows or has reasons to know that
such visual depiction will be transported or transmitted using any means or
facility of interstate or foreign commerce or in affecting interstate or
foreign commerce or mailed, shipped, or transported in or affecting interstate
or foreign commerce by any means, including by computer, or if such visual
depiction has actually been transported or transmitted using any means of
facility of interstate of foreign commerce or mailed, shipped, or transported
in or affecting interstate or foreign commerce by any means, including by
computer.

(e)

Imprisonment for not less than 15 years and not more than 30 years; if

the defendant has a prior conviction under this chapter, section 1591, chapter
71, chapter 109A, chapter 117, or under section 920 of title 10 (article 120
of the Uniform code of Military Justice), or under the laws of any State
relating to aggravated sexual abuse, sexual abuse, or abusive sexual conduct
involving a minor or ward, or sex trafficking of children, or the production,
possession, receipt, mailing, sale, distribution, shipment, or transportation
of child pornography or sex trafficking of children, such person shall be
imprisoned for not less than 25 years and not more than 50 . < years....

a

fine

not more than $250,000; and a term of supervised release of not less than five
years to life.

18 U.S.C. 52705(a)(1)(A)
(a) Delay of notification
(1) A governmental entity acting under section 52703(b) of this title may:
(A) Where a Court order is sought, include in the application a
request, which the Court shall grant, for an order delaying the notification
required under section 52703(b)

of this title for a period not to exceed

ninety days, if the Court determines that there is a reason to believe that
notification of the existence of the Court order may have an adverse result
described in paragraph (2.) of this subsection...

3

STATEMENT

OF

THE

CASE

On MAR 6, 2015 the FBI issue a NIT Warrant out of Virginia. On NOV 5, 2015
a Search Warrant that should mirror the Virginia Search Warrant for things
and persons that also should included address,

was issued out of Eastern

district of Texas. On NOV 6, 2015 the execution of the Search Warrant issued
out of the Eastern District of Texas which was an unlawful warrant that did
not

list

things

at

all,

much

less

the

Constitutionally

required

in

particularly. After several interviews, The FBI asked me to come down to their
office "to me get back my property". On AUG 24, 2016 a full 17 months after
the NIT Warrant was issued I was arrested.
If the Court totally ignores the fact that all information against me
was unlawful, and obtained in such manner as to destroy the 4th Amendment,
the Court still has to look at my conduct. My actions, though mislead, did
not represent criminality on my part. In an attempt to write a book showing
the dangers present to children,

I unknowingly created this a bad perception

upon myself. There is a stack of evidence to support my claim in my attempt
to write a story [See Appendix

A

]

preceded by previous stories where

• -I was awarded 2nd Place in 2004 and 1st Place in 2005 [See Appendix Congress

use

of

words

concerning minor/children
criminality where
Conduct"].

NONE

[See Appendix

in

statutes

are very

specific.

The

• B

]

statute

are worded very specific to keep from creating

existed...

["Minor to engage in Sexually Explicit

C ]. American Government Third Edition, Copyright

1990 with a photo of underage naked girl on page 698 where nudity is clearly
not criminality, if it's also allowed in text book to teach young people.
It seem the Courts and prosecutors are attempting to rewrite statutes
to fit their ideology. In doing this, they created their own law. One where

4

ordinary people like myself do not understand what the law demands, because
it does not match
representatives

the wording it was drafted with "Only the people's elected

in Congress have

the

power

to write

statutes

that

give

ordinary people fair warning about what the law demands of them" United States
vs. Davis, 139, S.Ct. 2319, 204C Ed. 2d. 757 (2019). But no ordinary people
could

foresee

that

the government would take a unconstitutionally

broad

approach to this statute and claim that a picture of sleeping nephew, which
upon realizing that showed his private part, which were deleted, would meet
the

element

of

"Minor

engaging

in sexually explicit conduct..." "The Due

Process clause guarantees that no person may be convicted of a crime [except]
upon sufficient proof defined as evidence necessary to convince a trier of
fact beyond a reasonable doubt of the existence of every element of the ofence"
Jackson Vs. Virginia,
U.S.C.

§2251(a)(e).

(1979).
The

I DID NOT MEET THE ELEMENTS required for 18

Constitutional violations

are

compounded

by

the

reality that the camera with it's SD Card where found with it's broken screen
at a dumpster. This camera and SD Card did not travel across any interstate
lines or affecting the interstate commerce in any manner,

they where found

locally. Not mentioning that the pictures where deleted at the same time upon
seeing what was revealed. The Child Pornography Prevention Act of 1996 (CPPA)
provides for two affirmative defences. First, a defendant IS NOT LIABLE for
possession if the defendant possess les than three proscribed images and
Promptly Destroy such images or
Clearly the

government's

Affirmative Defense action.

reports

own documents
So

the

the matter to law enforcement...
show

that

Court presented

the defendant met this
18 U.S.C §2251

(a) as

unconstitutionally broad to the jury, so they where ruling on the prosecutor's
idea of what they wanted as a Law, and NOT what the Congress made.

5

On JUNE 14, 2017 the fundamentally unfair trial, that was not about the
key element of 18 U.S.C. §2251(a)(e), concluded with Mr. Hernandez be found
wrongfully guilty due to an Unconstitutionally broadening of the statute,
where

any

rational fact finding jury ruling on the statute,

as Congress

intended, would have found myself innocent.

REASONS FOR GRANTING THE PETITION

1. Amendment
A.

IT

Violations

The NIT Warrant did not comport with Fed. R. Crim. P. 41, and it clearly

violates

the

IV

Amendment

and

its

spirit

to

protect

citizens

from an

authoritative government. And to claim that this Warrant that did not, by the
government's
produced
indictment

own

fruit
or

admission,
does

comport with Fed. R.

not make

information

is

it
not

good

Crim.

P.

" A constitutional

41 because it
defect

in an

cured by veredict..." Sutton Vs United

157 F 2d 661 (CA5, 1946). The NIT warrant, that unconstitutionally target Mr.
Hernandez,

must

meet

these

disinterested magistrate;

requirements:

(1)

Be

issued

by

a

neutral,

(2) Demonstrate that there is probable cause to

believe that the evidence sought will aid in the apprehension or conviction
of the offense;

(3) Describe the place to be search and the things to be

seized in particularity... Dalia Vs. United States, 441 U.S. 238, 255 (1979);

(1). Be Issued by a neutral, disinterested Magistrate...
After research on the matter, because the magistrate issued a warrant that
was out of comport wit Fed. R. Crim. P. 41. The reason it was apparently
clear. The magistrate judge in Virginia did not have the judicial authority
to issue a Warrant were the search were located out of District of issue...

6

" Ignorance of the law is no excuse for men in general. It is less an excuse
for men who's special duty is to apply it, and therefore to know and observe
it... When they enter such a domain in dealing with citizen's, they should
do so at their own peril, whether that be created by state or federal law.
For their sworn oath and their first duty are to uphold the Constitution."
Screws Vs.
major

United States, 325, U.S. 91, 129-130 (1944). The violation was

and not mere

technical

error.

The

NIT

technique

did not get its

information out of the data stream. But truly went into the defendant's home
through cabling. Entered his personal computer at his home in Texas and took
items unknown to the defendant.

This unconsented and unlawful search and

seized also has the opportunity to modify evidence as they see fit. This
represent the complete destruction of the IV Amendment if allowed to stand.
And clearly shows prejudice against defendant.

(2).

Demonstrate

that

there

is

[ probable cause ]

to that the evidence

[s]ought will aid in the apprehension or conviction of the offence... ;

WEBSTER'S 9th College Dictionary (1985)
Probable : Supported by evidence strong enough to establish presumption but
not proof.
Cause : A reason for action or condition / motive

[ FICTITIOUS SITUATION TO ESTABLISH LINE BETWEEN PROBABLE AND SUSPICIOUS ]
D.E.A.

agent is under cover observing a known subject's activities at the

residence.

The subject operates a suspected drug house in a lower income

neighborhood.

On

the

same

street

within

reasonable

distance

are

other

suspected residences. Making the area a known area for acquiring of various

7

illegal drugs.

After a two weeks or so,

the agent has gained reasonable

knowledge of the people that live in that area. He is gaining a reasonable
list of the users that frequent the area also. On or around week 3, he notices
a newer lifted blue chevy pickup truck casually cruising down the street, but
does not stop. About week later he notices that same blue truck with same
license number coming through.
Under those details does' agent have grounds to issue a FISA Warrant for phone
listed to register owner of blue pickup truck, Warrant for owner and residence
of said owner for narcotics?
Just because the individual made multiple appearance to known area for getting
drugs, does not give probable cause, it is suspicion but not probable.

Now, if that person in the blue truck stop at the residence being observed
or stop at corner and talk to owner of said residency, then he went from
suspicious to probable...

The Court in Virginia .has not established evidence that Mr. Hernandez crossed
the line from suspicious to probable. The government’s reason for the NIT
Warrant was Mr. Hernandez entered the play pen site ONLY when the FBI was in
control of the site and NO PASSWORD OR NICKNAME WERE NECESSARY TO GET IN. So
had hundreds of thousands of others.

The site carried both, illegal and legal pornography. So the government must
show clear evidence of probability of criminal activity and it has not, which
puts in question the Warrant’s Constitutionality. " A Constitutional defect
in a indictment or information is not cured by verdict..." Satton Vs. United
States, 157 F. 2d 661 (CA5, 1946). The concept of Rule of law clearly bring
this case law into play.
8

(3). Describe [the place to be searched] and the [things to be seized]... ;

The NIT Warrant out of Virginia specified ONLY the computer that access
the site upf45jv3biuctml.onion [See Appendix
enumerate the

[seven]

seized

adress

:

IP

D

].

It

specifically

types of information and object (the Computer) to be
information;

Information

identifying

the

activating

computer; Host name, type of operating system, operating system user's name,
the media access control -MAC- address; and NIT identifying information (to
distinguish the user from others and to determine whether the computer had
been previously activated).

It appears that there are questions that are

concerning with the NIT Warrant issued out of Virginia for Mr. Hernandez, that
the Court needs to address with the defendant...
1. Was magistrate truly neutral and disinterested and within her judicial
authority ?
2. Where is the evidence to support the position that there is probable cause?
3. On the NIT Warrant, the government clearly meets the last requirement under
Dalia Vs. United States, by listing the specific computer by where it accessed
the site, and by it's I.P., and the seven types of information within it to be
seized.

Petitioner respectfully prays that the writ of Habeas Corpus presented with
it's Constitutional issues be reviewed and ruled on, due to lower Courts use
of Rules and procedures to avoid Constitutional issues presented before them.
I also pray the Supreme Court to VACATE CONVICTION and DISMISS and/or VACATE
CONVICTION and REMAND FOR RETRIAL.

9

B.

For the government NOT TO BE IN VIOLATION OF THE STATUTE 18 U.S.C. §2705

it must serve the second Warrant -Out of Eastern District of Texas- within 30
days, or NO MORE THAN 90 DAYS (if extensions were granted, but record did not
show any). By virtue of 18 U.S.C. §2705 and the date of the NIT Warrant (MARCH
6,2015). Texas Search Warrant must be issued and served by JUN 4, 2015. Not in
NOV 6, 2015 at which point it has become "STALE”.
Due to the time limitations imposed by 18 U.S.C.
Warrant

was

clearly

"STALE".

The

executing

§2705 the Texas Search

officer,

Agent

Christopher

Thompson, must have known it was in violation of the statute of 18 U.S.C.
§2705 and did not act in "good faith" since the Search Warrant was issued at
his request. And he was fully aware of the original warrant date or date of
issue, with the required time frame that the person who, whose property will
be searched or seized. So his request was knowingly in absent of the fact it
was in violation of 18 U.S.C. §2705

by over 6 months to the Court in Eastern

District of Texas, eliminating the judges ability to determine the validity of
his request. If the Court disregard the agents violation of the limitations of
the statute 18 U.S.C §2705,(mandated by elected officials in Congress as law)
it must still having the duty to uphold the Constitution and honor the IV
Amendment of the Bill of Rights, to protect the people’s Rights and to prevent
future Constitutional violations by rogue agents.

Petitioner respectfully prays that the writ of Habeas Corpus presented with
it’s Constitutional issues be reviewed and rule on, due to lower Corts use of
Rules and procedures to avoid Constitutional issues presented before them. I
also pray the Supreme Court to VACATE CONVICTION and DISMISS
CONVICTION and REMAND FOR RETRIAL.

10

and/or VACATE

V

C.

The Warrant out of the District Court for the Eastern District of Texas,

should be a mirror of the NIT Warrant from Virginia.
The Warrant out of Virginia, claims "take off point" while the Warrant out of
the Eastern District of Texas is the "landing point". The Warrant out of
Eastern District of Texas should list the same things to be seized, but
included the address of the place where the Warrant is to be executed, as the
NIT Warrant out of Virginia. The IV Amendment of the Constitution for the
United

States

of America demands the Place and Things be described with

. particularity... "The place to be searched and the persons or things to be
seized" United States Vs. Grubbs, 547 U.S. 90, 97 (2006).

WEBSTER'S 9th COLLEGE DICTIONARY (1985)
Particularity : A minute detail / Particular b - A / specific item or detail
of information.

The Warrant issued from the Eastern District Court of Texas only has the
address

of defendant,

lacking the Constitutional IV Amendment requirement

of... "particularly describing the place to be searched, and the persons or
things to be seized." The NIT Warrant clearly list only the Computer, as
object,

and

seven

types

of

computer [See Appendix D

].

information

contained within

that particular

Again, the Warrant issued in Eastern District of Texas should mirror the NIT
Warrant from Virginia to be lawful, due to fact that if probable cause was
established it did so at the Virginia District. It appears that the Magistrate
Judge Christine A. Nowak assumed that the Agent Christopher Thompson, knowing
that the Warrant was based off the NIT Warrant out of Virginia District, was

11

going to execute the Eastern District of Texas Warrant [See Appendix E.

] as

instructed by the NIT Warrant. The Texas Warrant did not listing the things to
be seized when was issued

and clearly violates the IV Amendment.

The fourth Amendment is straight forward and clear in its requirements. And
NOWHERE in the text of the IV Amendment does it said "of things seized on
fishing expedition in your houses" [See Appendix F

]. The Warrant is to list

things upon it's issuing to such detail as to leave no doubt to the Agent... "
...And the description of the things to be seized must be such that nothing is
left to the discretion of the officer executing the Warrant...” Marron Vs.
United States, 275 U.S. 192, 196, (1927). Instead Agent Thompson executed the
Warrant as though the Constitution and resent Supreme Court precedents did
not apply to him. A citizen of this Country would think, that a agent from
one of the alphabet soup agencies (NSA,CIA,DEA,HLS,FBI,ATF,etc.,) would be
full

aware

of

Constitution’s

Riley

Vs.

IV Amendment

California.
and

the

So

Agent

Supreme

Thompson

Court

disregarded

mandate,

and

he

the
went

completely off scope...
(Scope: 1.Purpose,Goal/2.Range of Operation. WEBSTER'S 9th COLLEGE DICTIONARY)
by the NIT Warrant, seizing phones and mass storage flash Drivers items [See
Appendix

(S

]. All the mass storage Flash Drivers items and the phones were

located stored in opaque containers with lids, as appear on the photograph
produced by the FBI agents [See Appendix

H

]»

along

with

the

Computer,

which was the only item listed on the Warrant out of Virginia...
Appendix D

[

See

]. Plus, all the mass storage Flash Drives items and phones did

not possess any single picture or video of child pornography when the search
warrant was executed and forensics experts review it by about 3hr. at the
defendant1s

apartment

.

12

This

rummaging

through

Mr.

Hernande's

personal

items

represents a complete destruction of the 4th1 s

protection

of expectation of privacy "Individuals can manifest legitimate

expectation of privacy by placing items in closed opaque containers that
conceal their content from plain view..." United States Vs. Villareal, 963,
F 2d 770,
personal

773

(5th Cir.

containers,

not

1992).
only

By agents going through the defendant’s
violate

the

Constitutional

Right

of

Mr.

Hernandez expectation of privacy but they went completely off scope of the
first Lawful Warrant. These guidelines of a lawful search, have clearly been
established by the 4th Amendment and then by the Supreme Court "This guideline
is sensible because it preserves the competing objectives underlaying the 4th
Amendment's protections against warrantless police searches. A defendant's
expectation of privacy with respect to a containers unopened... Moreover, this
Rule discourages police from going on 'fishing expedition' by opening closed
containers..."

Thus

the

exclusionary

Rule

clearly

is

warranted

"The

exclusionary Rule prohibits introduction at trial of evidence obtained as the
result

of an

Illegal

search or

seizure.

The

Rule

exclude not only the

illegally obtained evidence itself, but also, other incriminating evidence
derived

from that

primary evidence..." Silverthone Lumber Co. Vs. United

States, 251 U.S. 385, 64 L.Ed 319, 40 S.Ct. 182 (1920); Wong San Vs. United
States, 371, U.S. 471, 488, 9L Ed 2d 441, 83 S.Ct. 407 (1963). The Supreme
Court further extended the exclusionary Rule to encompass evidence that is
the indirect product or "fruits" of the portion of the police search that is
exceeds the scope...

should have been exclude at trial" United States Vs.

Robert Beam Ruayan, 275, F. 3d 449 (5th Cir. 2001) (Judgement Reversed). The
"[t]he scope of a lawful search is defined by the object of the search and
place in which there is probable cause to believe that it may be found..."
Maryland Vs.

Garrison,

480 U.S.

79, 84 (1987). Agent Christopher Thompson

13

clearly disregarded the Supreme Court authority when he went off scope and
seized more than the Computer. Not only were the things not listed but due
to

their

immense

storage

of

personal

data

each can possesses,

they are

individually protected, and must have a Warrant issued for each phone and each
mass storage Flash Drivers items, or at least specifically list on one... "The
United

States

Supreme

Court

unanimously

held

that

the

police

officers

generally could not, without a Warrant, search digital information on the
phone...

Moreover,

the

immense

storage

capacity

of

modern

cell

phones

implicates privacy concerns with regard to the extent of information which
could be accessed."Riley Vs. California, 573 U.S. 373, 382, 134 S.Ct. 2473,
189, L. Ed 2d 430, (2014).
Agent Thompson's jurisdictional authority t<? execute the Warrant was confined
to a lawful Warrant and not to depart from the scope of the Warrant. And,
since his search went beyond the item(s) listed on the first Warrant, they
were

seized

uncostitutionally

"the

conclusion

that

the

search

was

unconstitutional rendered the the child pornography images found... to be
'fruit

of

the

poisonous

tree*

and

inadmissible...

the

CONVICTION...” United States Vs. Morton, 984, F. 3d. 421

Court

VACATE the

(5th Cir. 2021).

—And the Morton case involves almost 22,000 images of child pornography 9 • *•
Agent Thompson "have no more right to decline the exercise of jurisdiction
which is given, than to usurp that which is not given. The one or other would
be treason to the Constitution...” Cohens Vs. Virginia, 6Wheat (19 U.S.) 264,
404, (1821). The NIT Warrant clearly listed what was to be the object of it,
but the Eastern District of Texas Search Warrant, that should mirrored the
NIT Warrant from Virginia, did not conform to the particularity of the NIT
Warrant or the IV Amendment...

"A search conducted pursuant to a Warrant that

fail to conform to IV Amendment, is Unconstitutional..."
540 U.S. 551, 564, (2004).
14

Groh Vs • Ramirez,

Because Agent Thompson had knowledge of the particular item listed on the NIT
Warrant out of Virginia to be seized, he knowingly and willfully operated
beyond of his jurisdictional scope. This clearly represents a situation where
the

Exclusionary

Rule

mus

be

applied

"...The

Exclusionary

Rule

was

historically designed to deter police misconduct rather than to punish the
errors of judges and magistrates..." Illinois Vs. Krall, 480, U.S. 340, 348,
(1987).
There are so many errors in the Texas Warrants drafting and execution, that
the Court would lose all validity if it does not strike everything pertaining
to the items seized and related information from those items as unlawful
obtained

after

several

months

of

forensic

data

retrieval,

end

thus

inadmissible. These kind of errors must be fixed to deter future occurrences.
Court recognized "sole purpose" of Exclusionary Rule is "to deter future 4th
Amendment Violations" United States Vs. Woemer, 709, F. 3d 527, 534 (5th Cir.
2013)(Citing United States Vs. Davis, 564, U.S. 229, 236-37 (2011); See also
United States Vs.
agents

Pope, 467, F. 3d 912, 916 (5th Cir. 2006). Because the

operated with NO

REGARD

to

the

IV Amendment and disregarded the

defendant’s reasonable expectation of privacy and SCOPE of a lawful search.
The fifth Circuit clearly agreed with our stand on the scope being only of
the Computer [See Appendix

X

], where NO EVIDENCE WAS FOUNDED related to

the crime charged, as the Court's record shows [See Appendix

G

].

The Items founded in the closed containers, where out of the scope, and the
SD Card (with it's deleted images of defendant’s sleeping nephew) is what the
government use to build its entire case on. The Appellate Court erroneously
stated that the pictures that led the defendant's conviction was found on the
Computer when it Rule on Direct Appeal [See Appendix X

], so the SD Card

and all other items are "fruit of the poisonous tree" thus inadmissible
as evidence...
15

Petitioner respectfully prays that the writ of Habeas Corpus presented with
itfs Constitutional issues be reviewed and ruled on, due to lower Courts use
of Rules and procedures to avoid Constitutional issues presented before them.
I also pray the Supreme Court to VACATE CONVICTION and DISMISS and/or VACATE
CONVICTION and REMAND FOR RETRIAL.

2. Amendment VI

Violation

The Counsel (Mr. Robert Gerard Arrambide) never explained what was going
on with my case. He just kept saying that I should plead guilty. He refused to
give me any of the documents in my record case file. He said that "he cannot
show me anything because "the file record where sealed by the judge", which
J

was a lie [See Appendix

J.

It

is

clear that the Court order was to

prevent the public view, not to prevent defendant to review documents with his
"legal team". Due to his continued efforts to persuading me to sign a plea for
a

crime

I DID NOT COMMIT.

And because he never provide me with needed

information -as the discovery- to being acknowledgeable about my defense, I
drafted and sent a "Motion to dismiss Counsel" [See Appendix.

]

to obtain

a new Counsel. The Court had hearing to Rule on "Motion to Dismiss Counsel"
where the prosecutor objected to my Motion -which was
denial- [See Appendix

L

the basis

for the

]. The Court’s denial was done knowing that The

prosecution is precluded from participating in the determination whether a
defendant is eligible for appointed Counsel under C.J.A. or it's determination
to added or remove a Counsel. The Government's decision to insert itself into
the

important

determination

of

defendant

to

have

a

fair

and

effective

assistance of Counsel carries with it a reproachable air of stacking the deck
for which we cannot offer tacit acceptance. So, when the Court disqualified
the defendants attempt to get new counsel -of his choice-, created in the

16

defendant’s mind the misconception that he must keep such Counsel through all
the process, a process that he don't understand, leaving the defendant with no
hope

for

defendant

to

prove

his

actual

and

factual

innocence.

"When

a

defendants sixth Amendment Right to Counsel of his choice is erroneously
disqualified, this constitutes a 'Structural Error' requiring the conviction
to be reversed..." United States Vs. Gonzalez-Lopez, 548 U.S. 140, 126 (2006).
I Being forced to continue use of a Counsel that had repeatedly exhibit
prejudice to me and lack of any communication or information needed. So I did
what the Court where forcing and try to work with Mr. Robert Gerard Arrambide
praying for he do his job. I gave him a list of witnesses favorable to me.
Those were Mexican National's here on Visa, magically got phone calls offering
a quick path to U.S. Citizenship if they testified for the government.
I explain to him very important facts and his responses always ended in try
to force me to accept a guilty plea, when I ask him how I could be guilty of
18

U.S.C.

§2251(a)(e)

when

the

government

claimed

a

picture,

which

I

immediately delete, of my sleeping nephew where there was NO sexual intent,
nor a minor engage in a sexually explicit conduct, which is the biggest
element of the crime under the statute 18 U.S.C. §2251(a)(e), so how I met the
elements?

He just responded "I can not do any defense in your case" and

"Nobody win cases like this on Eastern District of Texas. Here, every body
sign a plea for 10 or 12 years", till today, I ask myself, why he never use
all

the

information

and

favorable

evidence

that

I

provide

to

him?

"...defendant alleged that he twice explained facts to his attorney which he
asserts should have at least caused attorney to explain possible defense...
with which allegation he could possibly prove set of facts sufficient to
substantiate

claims of ineffective assistance of Counsel..."

United States, 538, F.2d 1208 (5th Cir. 1976).

The

counsel

Summers Vs.

also

submit

a

"Motion to Suppress Evidence" which was done out of my knowledge, and also,
17

still out of the record too. Till today, I do not know if the arguments on
such

Motion

where

furnished

on bad

faith

or

in a manner

that

created

prejudice, due to fact that the District Court denied a petition to obtain my
own record. In fact, there is a pending appeal for a new denial on my last
intent to obtain my own record (Case: 21-40051 Court of Appeals Fifth Circuit)

The counsel for the record, Mr. Robert Gerard Arrambide, went as far as
to interrogated my wife as if he was an FBI agent and Threaten her to be
deported if she insist to testify on my behalf during trial [See Appendix M

], surely he crosses to the obstruction of justice, to a criminal act
involving jail time

"...in accessing whether Counsel's deficient performance

prejudiced a defendant

*ANY amount of actual jail time has Sixth Amendment

significance..." Glover Vs. United States, 531, U.S. 198, 203, 148, L.Ed.2d.
604 (2001). Same acts happened during trial, he threaten me not to testify in
my own behalf, saying that the Court would give me at least 30 years, or at
minimum,

deport

family members.

Just

as

deportation" Padilla Vs. Kentucky, 559, U.S.

"advice

regarding

the

risk of

, .176 L. Ed. 2d 284 (2010), is

cause of ineffective assistance of Counsel. Plus, the favorable witnesses that
I listed for the stand on my behalf, no one was listed on the record to being
called, even though they were there for me [See Appendix
the

lack

of

effectiveness

not

just

because

he

and

Nl
the

]. To

compound

"interpreter"

interrogated my wife trying to obtain any "information" that can help to build
a credible case for the government, and him not calling me to stand on my own
behalf, knowing that with me not telling my side of story, the jury will ruled
on the only side they heard, causing the trial itself to be fundamentally
unfair in it's proceeding and outcome. Furthermore, immediately after the end
of the last day of trial, I informed him of my wishes to appeal, he said that
he will during the sentence hearing. After eight months, finally I went in
18

the hearing for the sentence, at the end of the hearing, I expressed him again
my wishes to appeal,

and he just said "I will", but days later my wife

received a call from the "interpreter" saying that the Counsel need to talk
with me about the case before he make an appeal, and that he (the Counsel)
will visit me on 20 days. So I submitted my own Notice of Appeal, knowing that
the Notice

of

Appeal must be on record within 14 days after sentencing

hearing. His past actions of prejudice showed he would not going to do the
appeal.

Counsel for Direct Appeal
Equally

ineffective was how Counsel for Direct Appeal

(Mr. Mathew M.

Robinson) proceed. He refused to pursue all the structural errors presented
to him by defendant for his defense, arguing that defendant never had a trial.
Counsel refused also, to provide any information related to the Direct Appeal
and

to

provide

any

portion

of

the

defendant's Court Record.

defendant's request of the judgement on the Appeal Case No.:

Just after
18-40022, he

realized that the only "defense" submitted by Mr. Mathew M. Robinson was a
copy of the "Motion to suppress evidence". Just as in Lombard Vs. Lynaugh,
868, F 2d 1475 (5th Cir. 1989). where "Counsel was ineffective for filling
'Anders

brief'

when

non-frivolous

issues

existed..."

Counsel

Mathew

M.

Robinson was equal ineffective for copying the pre-trial "Motion to Suppress
Evidence" as the Direct Appeal brief, when the District Court had previously
rejected that

same argument. Plus furthermore he ask for as relief,

the

overturn of a plea agreement that didn't exist, due to defendant went to
trial. This demonstrated that the Counsel DID NOT investigate any of the Court
record

"...Defense Counsel presented NO defense and FAILED to investigate

evidence..." Gaines Vs. Hopper, 575, F 2d 1147 (5th Cir. 1978).

19

s

The Right to effective assistance of Counsel is guaranteed all the way through
the Direct Appeal process

"•••Sixth Amendment Right to effective assistance

of counsel extends to first Appeal as of right..." Evitts Vs. Lucey, 469, U.S.
387, 83, L. Ed 2d 821 (1985).

Petitioner respectfully prays that the writ of Habeas Corpus presented with
it's Constitutional issues be reviewed and ruled on, due to lower Courts use
of Rules and procedures to avoid Constitutional issues presented before them.
I also pray the Supreme Court to VACATE CONVICTION and DISMISS and/or VACATE
CONVICTION and REMAND FOR RETRIAL.

CONCLUSION

The petition for a writ of Habeas Corpus should be GRANTED

ft
Respectfully Submitted,
•i

Hernandez Cuellar Jose Victor
Date:

SEP ZO, 303.1

20

